i

Civil Action No.
In the
Supreme Court of the United States

Gabriel Schmitt, on behalf of himself, resident of
the COMMONWEALTH OF MASSACHUSETTS
Plaintiffs,
v.
Governor Charlie Baker, in his official capacity as
Governor of the COMMONWEALTH of MASSACHUSETTS

Defendant.

)
ON PETITION FOR A
) WRIT OF CERTIORARI TO
) FIRST CIRCUIT COURT
) OF APPEALS
)

PETITION FOR Writ of Certiorari in case 20-1428 Schmitt vs. Baker (1st circuit!
Gabriel Schmitt
40 Reservation Road
Sunderland MA
01375
413 575 7648

FILED
AUG 2 8 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

Questions Presented:

1. May a state governor close the state house of that state's congressional body to the public, in addition
to all of his offices, such that there is no way for any individual to serve him with a summons to a civil
action which alleges that such behavior (in addition to any other restrictions on said individual's
constitutional rights) is a violation of first amendment rights (including the right to be able to petition
for redress of grievances)? If a governor may do such a thing with the stated intention of protecting the
public health, may the aforementioned individual be granted the right to serve the governor with
substitute service (in sted of R. Civ. P. 4) as defined by Transamerica Corp v. Transamerica
Multiservices Inc. et al. No. 118 CV 22483 due to the fact that as a defendant he is preventing a
summons from being served on himself by his actions?

2. May a state governor violate the constitutional rights of his state's citizens using the police power
and fines by relying on data from the Center for Disease Control and the World Health Organization,
both of whom are biased in favor of large pharmaceutical companies, donors and other funding sources?
If a governor may do so, is it allowable that he should be able to rely on data regarding the spread of an
accute respiratory illness which is collected in a non-standardized and innacurate way, through the use
of PCR tests, Serology tests, and doctor's assesments, none of which are verifiably accurate or have
been proven consistent amongst each other previously for the purpose of proving that such a disease is
rapidly spreading and hence a threat to the public health? If a governor may do both of the
aforementioned actions, is it allowable that he should be able to limit the free practice of religion based
on said information despite the fact that courts have previously ruled in Yoder v. Wisconsin that only a
state interest of the highest order can be grounds for obstructing the first ammendment right to practice
religion?

List of Parties
All parties appear in the caption of the case on the cover page.

Related Cases
Schmitt v. Baker, No. 1:20 - CV - 10618-NMG, U.S. District Court for the Eastern District of
Massachusetts. Judgment entered March 31, 2020.
Schmitt v. Baker, No. 1:20 - 1428, U.S. First Circuit Court of Appeals. Judgment entered
August 28, 2020.

Table of Contents
Opinions below

1

Jurisdiction

,4

Constitutional and Statutory Provisions involved.

5

Statement of the case

6

Reasons for Granting Writ.

9

Conclusion.

9

Appendices
Appendix A

Untied States First Circuit Court of Appeals Order

Appendix B

United states District Court of Eastern Massachusetts Order, Gorton, J

Appendix C

Extended Versions of Statutory Provisions Involved

1

!

Table of Authorities Cited

Yoder v. Wisconsin

6

United States v. O ’Brien

6

Thomas v. Collins, Sheriff (323 U.S. 516;

6

Transamerica Corp v. Transamerica Multiservices Inc. etal. No. 118 CV22483... 6, 9

Statutes and Rules
First Amendment of the Constitution of the United States

6

Rules of Civil Procedure 4

6,9

2

In the Supreme Court of the United States
Petition for Write of Certiorari

Plaintiff, Gabriel Schmitt, respectfully prays that a writ of certiorari issue to review the kudgements
below.

The opinion of the United States court of appeals, first circuit, appears at Appendix A to the petition and
is available at pacer.gov and is unpublished in any other form.

The opinion of the United States district court appears at Appendix B to the petition and is unpublished.

3

Jurisdiction

The date on which the United States Court of Appeals, fust circuit, decided my case was August 28,
2020.

The Jurisdiction of this Court is invoked under 28 U.S.C. Section 1254(1).

4

Constitutional and Statutory Provisions Involved:
Chapter 639 Civil Defense Act of 1950
Sections 4, 5,7 (See Appendix C)
Section 8 in pertinent part: Executive Orders, General Regulations, and Written Instructions of
Governor; Violations; Penalties.
“The governor may exercise any power, authority or discretion conferred on him by any
provision of this act, either under actual proclamation of a state of emergency as provided
in section five or in reasonable anticipation thereof and preparation therefor by the
issuance or promulgation of executive orders or general regulations, or by instructions to
such person Or such department or agency of the commonwealth, including the
Massachusetts Emergency Management Agency, or of any political subdivision thereof,
as he may direct by a writing signed by the governor and filed in the office of the state
secretary. Any department, agency or person so directed shall act in conformity with any
regulations prescribed by the governor for its or his conduct.”
General Laws of Massachusetts
General Laws Chapter 111 Section 6
General Laws Chapter 17 Section 2 A:
“Upon declaration by the governor that an emergency exists which is detrimental to the
public health, the commissioner may, with the approval of the governor and the public
health council, during such period of emergency, take such action and incur such
liabilities as he may deem necessary to assure the maintenance of public health and the
prevention of disease.”
First Amendment to the constitution of the United States:
Congress shall make no law respecting an establishment of religion, or prohibiting the free exercise
thereof; or abridging the freedom of speech, or of the press; or the right of the people peaceably to
assemble, and to petition the Government for a redress of grievances.
Rule of Civil Procedure 4(c)l:(l) In General. A summons must be served with a copy of the
complaint. The plaintiff is responsible for having the summons and complaint served within the time
allowed by Rule 4(m) and must furnish the necessary copies to the person who makes service.
5

Statement of the Case
1. This petition is intended to communicate why the decisions of the first circuit court of appeals and
the district court of eastern massachusetts on Plaintiffs emergency motion are worth reviewing by the
Supreme Court. A brief summary of the case is as follows:
2. Due to a new strain of a Coronavirus, termed COVID-19, Governor Charles D. Baker, the defendant,
decided to invoke his emergency powers by declaring a state of emergency under General Laws
Chapter 17 Section 2A due to a public health risk. At the time of the Plaintiffs filing there had been 13
COVID-19 executive orders which curtailed the rights of residents of the Commonwealth of
Masaschusetts in an effort to curb the spread of COVID-19. Due to the Governor's failure to uphold the
constitutional rights of the Plaintiff, Plaintiff filed a civil action seeking relief from the court and
protection of his first amendment rights. Courts have stated in United States v. O'brien that the state
must limit itself to the bare essential required to further the state interest, which Governor Baker has
failed to do by employing measures which are overbearing and unproven. They have further held in
Yoder v. Wisconsin that only the highest state interest can be cited as cause to restrict the free expression
of religion, which Governor Baker never established in his executive orders, nor did he meet the
standard of establishing that a clear and present danger existed from Thomas v. Collins, Sheriff (323
U.S. 516.
3. As the Plaintiff was unable to serve Governor Baker with the complaint, he sought to contract with
the Sheriff for service of the summons, but was refused and being unaware of rule 4(c)3, he filed an
emergency motion which sought a restraining, order against the governor and/or the ability of the
Plaintiff to employ substitute service, as defined in Transamerica Corp v. Transamerica Multiservices
Inc. et al. No. 118 CV 22483 in sted of R. Civ. P. 4. on defendant Charlie Baker (because Mr. Baker had
closed all offices and the state house to the public, making service of a summons impossible, even by
6

the Sherrif, whom the Plaintiff attempted to contract with for the purposes of delivering the summons.)
The restraining order was intended to stop what was at the time 13 COVID executive orders which
employed the police power of the state in an unconstitutional way by constraining the use of first
amendment rights of the Plaintiff without meeting the requirements set by the Courts. These executive
orders are intended to stop the spread of COVID-19, as he wrote.
4. Although employing the police power to constrain constitutional rights, the measures employed by
Mr. Baker were not demonstrated to be effective or limited to the bare essentail measures needed to stop
COVID-19. Nor was there clear evidence of a clear and present danger presented by the Governor as
cause for his measures, which include limiting the exercise of religion. Further issues with his
executive orders include:
A. Obstructing the ability to petition the government for redress of grievances (hence why
Plaintiff could not serve the summons), by closing the state house
B. Obstructing the right to personal autonomy that has been repeatedly upheld by the court by
enforcing social distancing measures, wearing of masks, and ordering consenting adults to
refrain from physical contact.
C. Obstructing the right to peacefully assemble by limiting indoor and outdoor gatherings to 10
or 25 individuals, respectively.
D. Depending on data from PGR tests, examinations, serology tests, and the CDC and WHO
which are not credible evidence and have been shown to be inaccurate to such an extent that
they cannot be used to justify the curtailment of constitutional rights.
5. Justice Nathaniel Gorton of the eastern district ruled (civil action No. 20-10618-NMG) that,
“...plaintiff has not demonstrated that he will suffer irreparable injury, loss or damage resulting from his
temporary inability to serve process on defendant, Governor Charlie Baker.” which precluded Plaintiff
7

<(

from being allowed substitute service.
6. To summarize Gorton's opinion:
A. Plaintiff is denied substitute service on Defendant because he cannot demonstrate damages
B. Until he serves Defendant, Plaintiffs motion for injunctive relief cannot be heard, even
though the Defendant's actions made it impossible for Plaintiff to serve complaint to begin with
by closing his offices and the State House.
7. The first circuit court of appeals then denied to take up the case because of the nature of the
temporary restraining order was not in effect an injunction (deciding that it lacked finality).

8

H
Reasons for Granting the Petition
Justice Gorton's ruling is problematic because it implies someone without an income who cannot
serve a complaint in accordance with R. Civ. P. 4 has no recourse against governors and politicians who
obstruct their rights. Gorton continued on to say that Plaintiffs motion for a temporary restraining order
is denied until the complaint could be served on the Governor, which is problematic because then no
possible way exists for a hearing to be had on the constitutionality of such executive orders, unless the
court appoints someone to serve the complaint according to Rule of Civil Procedure 4(c)(3), however
he did not mention that this was a potential method of service in his opinion, instead referencing
Massachusetts rule of civil procedure 4(d)(3).
In regards to the decision of the first circuit court of appeals, Plaintiffs motion clearly would
have resulted in the same ends as an injunction and was only filed as a temporary restraining order for
the sake of expediency, despite the ruling that it lacked finality. A temporary restraining order was
thought preferable to an injunction because it would have meant that less time would have elapsed
between the filing of the mtion and a hearing. Either an injunction or a restraining order would do the
same thing: stopping unconstitutional uses of the police power by Governor Charles Baker in response
to COVID-19. They did not adress the need for substitute service in their decision.
Conclusion
It is the hope of the Plaintiff that the Supreme Court will grant this writ of certiorari for a
Temporary Restraining Order and/or the Plaintiff to perform substitute service on Governor Baker in
accordance with Transamerica Corp v. Transamerica Multiservices Inc. et al. No. 118 CV 22483.
Sincerely,
abrieLSchmitt
.t

9

9/29/20

Pro-se Plaintiff
gschmitt@umass.edu
413575 7648

